                                                       DOT OIG Recovery Act Overview

                                 OIG Name: Department of Transportation, Office of Inspector General

                                           Conduct timely oversight of DOT ARRA funds while focusing on three major challenges facing the 
                                           Department: (1) ensuring that DOT's grantees properly spend ARRA funds; (2) implementing new 
             OIG Broad Recovery Act Goals:
                                           accountability requirements and programs mandated by ARRA; and (3) combating fraud waste, abuse, and 
                                           mismanagement.
                                              Conduct fraud awareness and prevention activities to alert DOT staff and grantees, including contractors, at 
   OIG Broad Outreach Recovery Act Goals:
                                              all levels of government on how to recognize, prevent, and report suspected fraud.

                                           DOT OIG is using a three‐phase approach to conduct audit and investigative work by emphasizing high‐risk 
                                           areas and promptly report results:  Phase 1‐‐conduct a comprehensive review of prior reports and 
                                           testimonies to identify major challenges facing DOT with the implementation of ARRA and  identify actions 
                                           DOT should take now to address known challenges‐‐(COMPLETED);  Phase 2‐‐conduct a systematic scan of 
                                           DOT agencies receiving ARRA funding to examine   vulnerabilities in program management and planning 
 OIG Recovery Act Risk Assessment Process:
                                           that could impede DOT's ability to effectively oversee ARRA‐funded projects and meet new statutory and 
                                           OMB requirements; and  Phase 3‐‐Target for audit and investigation, specific DOT programs and projects, 
                                           emerging as vulnerable/high‐risk areas as a result of the scan completed in Phase 2.  Throughout Phases 2 
                                           and 3, we will promptly notify DOT, Congress and the public through ARRA Advisories and reports, of DOT 
                                           actions needed to achieve ARRA goals.


                    OIG Recovery Act Funds: $20,000,000 (FY 09 ‐September 30, 2013)
 Expiration Date of OIG Recovery Act Funds: 09/30/2013
      FY 2009 OIG Non‐Recovery Act Funds: $71,400,000 (FY 2009 Omnibus Appropriation)

                                          Plan to hire up to 38 new hires in FY 2009 and FY 2010 (This will include auditors, analysts, and investigators 
Number of OIG Planned Recovery Act Hires: at various grade levels.  This may also include rehired annuitants, term appointments, and contractors to 
                                          supplement our work, as necessary.)

  OIG Recovery Act Funds to be Allocated to 
                                             To Be Determined (As of May 2009, DOT OIG has not allocated any ARRA funds to contracts).
                                 Contracts:
         Purpose of Recovery Act Contracts: Not Applicable
Types of Recovery Act Contracts Awarded to 
                                             Not Applicable
                                      Date:

Link to OIG FY 2009 Recovery Act Work Plan:
                                                                                               DOT OIG Recovery Act Work Plan

                                                  Type of Review 
                                                                                                                                                                                                                        Expected 
                                                 (Administrative /                                                                                                                                          Expected 
                            Agency Recovery Act                     Entity Performing                                                                                                                                  Quarter in         Expected 
                                                     Financial,                                                                                                                                            Quarter in 
 Agency     Program Area     Funds Associated                       Review (OIG Staff,        Project Title                      Background                                     Objective                              which Final       Number of 
                                                     Eligibility,                                                                                                                                          Which Work 
                              w/Program Area                        Contractor, Other)                                                                                                                                 Report will         Reports
                                                   Performance,                                                                                                                                             will Start
                                                                                                                                                                                                                        be Issued
                                                       Other)




                                                                                                                In anticipation of ARRA's passage, on January 
                                                                                                                31, 2009, we initiated Phase 1 of our audit 
                                                                                                                strategy by announcing our audit to identify 
                                                                                                                risks and oversight challenges associated with 
                                                                                                                economic stimulus funding for transportation 
                                                                                                                projects. On March 31, 2009, we issued our 
          All ARRA‐funded                                                                                       report, "ARRA 2009: Oversight Challenges Facing 
                                                                                                                                                                  Identify key DOT oversight challenges‐
          programs and                                                                                          the Department of Transportation.”   The report  
                                                                                          ARRA  2009:                                                             ‐based on prior OIG reports and other                                 1 Final Report 
          projects within                                                                                       highlighted three key DOT oversight challenges 
DOT                         $      48,100,000,000  Performance      OIG Staff             Oversight Challenges                                                    agencies' relevant audit work‐‐and     Q2 FY 09        Q2 FY 09     Issued on March 
          FAA, FHWA, FRA,                                                                                       and 10 focus areas where DOT must exhibit 
                                                                                          Facing the DOT                                                          identity actions DOT should take now                                     31, 2009
          FTA, OST, and                                                                                         sustained and effective actions and oversight. 
                                                                                                                                                                  in support of ARRA requirements..
          MARAD                                                                                                 To ensure that the potential risks discussed in 
                                                                                                                our report were sufficiently considered, we 
                                                                                                                recommended  and the Secretary of 
                                                                                                                Transportation developed, an oversight 
                                                                                                                implementation plan that outlines the key 
                                                                                                                actions DOT already has underway or will take 
                                                                                                                to address the 10 focus areas. 




                                                                                                               Phase 2 of our ARRA ‐related audit  work          Evaluate each agency's ARRA 
          ARRA‐funded 
                                                                                                               includes conducting expeditious and structured    implementation by identifying                                          Multiple  ARRA 
          programs and                                                                    Agency Scans of 
                                                                                                               reviews/scans of each DOT Operating               vulnerabilities that could impede                                       Advisories as 
          projects within                                                                 DOT's initial 
DOT                         $      48,100,000,000  Performance      OIG Staff                                  Administration's implementation of ARRA           DOT's ability to (1) provide effective     Q3 FY 09     Q4 FY 09     vulnerabilities are 
          FAA, FHWA, FRA,                                                                 Implementation of 
                                                                                                               requirements based on the 10 focus areas          oversight to ARRA‐funded projects                                     identified and 1 
          FTA, OST, and                                                                   ARRA
                                                                                                               identified in our March 2009 report and DOT's     and (2) meet new requirements                                           Final report.
          MARAD
                                                                                                               oversight implementation plan.                    mandated by ARRA and OMB.
                                                                                                 DOT OIG Recovery Act Work Plan

                                                    Type of Review 
                                                                                                                                                                                                                         Expected 
                                                   (Administrative /                                                                                                                                         Expected 
                              Agency Recovery Act                     Entity Performing                                                                                                                                 Quarter in         Expected 
                                                       Financial,                                                                                                                                           Quarter in 
  Agency     Program Area      Funds Associated                       Review (OIG Staff,        Project Title                      Background                                    Objective                              which Final       Number of 
                                                       Eligibility,                                                                                                                                         Which Work 
                                w/Program Area                        Contractor, Other)                                                                                                                                Report will         Reports
                                                     Performance,                                                                                                                                            will Start
                                                                                                                                                                                                                         be Issued
                                                         Other)




                                                                                                                 FRA received $8 billion in ARRA funding  to       Assess implementation risks 
                                                                                                                                                                                                                                       Multiple  ARRA 
                                                                                                                 make grants to States to develop high‐speed rail  associated with ARRA's Capital 
           High‐Speed Rail /                                                                Review of FRA's New                                                                                                           Q1 FY 10      Advisories as 
                                                                                                                 corridors and improve intercity passenger rail  Assistance for High Speed Rail 
FRA        Intercity           $        8,000,000,000  Performance    OIG Staff             Passenger Rail                                                                                                   Q3 FY 09   through  Q4  vulnerabilities are 
                                                                                                                 service.   In our March 31, 2009 report, "ARRA  Corridors and Intercity Passenger Rail 
           Passenger Rail                                                                   Program                                                                                                                        FY 11      identified and  4 
                                                                                                                 2009: Oversight Challenges Facing the             Service Program with a focus on:  (1) 
                                                                                                                                                                                                                                        Final reports.
                                                                                                                 Department of Transportation,” we identified  State and FRA institutional capacity, 
                                                                                                                 FRA's new passenger rail program as a risk since  (2) State‐freight railroad capital 
                                                                                                                 FRA has not previously implemented a large‐       agreements, (3) financial forecasting 
                                                                                                                 scale high‐speed passenger rail program called  best practices, and (4) intercity 
                                                                                                                 for in ARRA.                                      passenger rail service bottlenecks.  

           Select ARRA‐                                                                                                                                                                                                                 Multiple  ARRA 
                                                                                                                 Phase 3 of our ARRA‐related audit work includes 
           funded projects                                                                                                                                                                                                                Advisories as 
                                                                                                                 conducting in‐depth assessments of select ARRA‐
           and programs                                                                                                                                                                                                                vulnerabilities are 
DOT                             $      48,100,000,000  Performance    OIG Staff             To Be Determined     funded high risk projects and programs within  To Be Determined                             Q4 FY 09     Q4 FY 13
           within FAA, FHWA,                                                                                                                                                                                                             identified and 
                                                                                                                 FAA, FHWA, FRA, FTA, OST and MARAD based 
           FRA, FTA, OST, and                                                                                                                                                                                                            multiple Final 
                                                                                                                 on the results of our Phase 2 scans.
           MARAD                                                                                                                                                                                                                            reports.
